APPENDIX TABLE OF CONTENTS
OPINIONS, ORDERS AND JUDGMENTS
Opinion of the United States Court of Appeals for
the First Circuit (August 21, 2020) ................... 1a
Judgment of the United States Court of Appeals
for the First Circuit (August 21, 2020) .............. 9a
Announcement of Jury Verdict
(July 20, 2018) .................................................. 11a
REHEARING ORDER
Order of the United States Court of Appeals for the
First Circuit Denying Petition for Rehearing
(October 2, 2020) .............................................. 15a
RELEVANT STATUTORY PROVISIONS
Relevant Statutory Provision
42 U.S.C. § 12112 ............................................. 17a
DOCUMENTS RELATED TO JURY INSTRUCTIONS
Plaintiff’s Proposed Jury Instructions
(July 3, 2018) .................................................... 24a
Defendant’s Proposed Jury Instructions
(July 3, 2018) .................................................... 52a
Colloquy with Court Regarding Failure to
Accommodate Instruction
(July 18, 2018) .................................................. 62a
Trial Court Jury Instruction
(July 19, 2018) .................................................. 68a

APPENDIX TABLE OF CONTENTS (Cont.)
OTHER DOCUMENTS
Direct Examination of Brian Bell,
Relevant Excerpt (July 17, 2018)..................... 70a
Cross Examination of Brian Bell,
Regarding Fitness for Duty
Relevant Excerpts (July 18, 2018) ................... 72a
Direct Examination of Chris Watters,
Relevant Excerpt (July 18, 2018)..................... 77a
Re-Cross Examination of Chris Watters,
Relevant Excerpt (July 18, 2018)..................... 79a
Petition of Defendant-Appellee O’Reilly Auto
Enterprises, LLC for Rehearing En Banc
(September 3, 2020).......................................... 81a
U.S. Courts Publication, Just the Facts:
Americans with Disabilities Act
(July 12, 2018) .................................................. 90a

App.1a
OPINION OF THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT
(AUGUST 21, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
BRIAN BELL,

Plaintiff, Appellant,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’Reilly Auto Parts,

Defendant, Appellee.

________________________
No. 18-2164

Appeal from the United States District
Court for the District of Maine
[Hon. Jon D. Levy, U.S. District Judge]
Before: BARRON, SELYA, and BOUDIN,
Circuit Judges.
BOUDIN, Circuit Judge.
Brian Bell alleged that O’Reilly Auto Enterprises (“O’Reilly”) failed properly to accommodate his
disability under the Americans with Disabilities Act
(“ADA”), 42 U.S.C. § 12101 et seq, and the Maine
Human Rights Act (“MHRA”), 5 M.R.S. § 4551 et seq.

App.2a
At trial, the jury found for O’Reilly. Bell now
appeals.
Bell lives with Tourette’s syndrome, attentiondeficit/hyperactivity disorder, and major depression.
He takes medication, but experiences motor tics,
often accompanied by a mild verbal noise, and he
cannot concentrate easily. With depression, he wakes
up weary.
Despite these symptoms, Bell earned a position
with O’Reilly to manage its store in Belfast, Maine.
As store manager, Bell was “[r]esponsible for the
sales, profitability, appearance, and overall operations
of the store.” Bell trained, supervised, and evaluated
employees, monitored accounting, tracked inventory,
and set prices. He oversaw a small team, usually
about eight to twelve employees.
Bell worked as a store manager for months without
incident. During this time, not counting breaks, Bell
was scheduled to work slightly more than fifty hours a
week and ten-and-a-half hours a day. Beyond these
scheduled hours, Bell infrequently worked an additional
fifteen to thirty minutes a week to complete tasks.
But work grew more intense when Bell lost two
shift leaders, leaving only a few employees who could
open and close the store. Unable to schedule employees
for overtime, Bell made up the difference himself,
working almost 100 hours a week on fifteen-hour
days. He worked from around 6:30 a.m. to 9:30 p.m.
almost every day, including weekends.
Bell’s symptoms grew more severe and his motor
tics grew more frequent and more painful. His
concentration deteriorated, as did his sleep. He told
his mental health provider that he felt overwhelmed.

App.3a
Bell broke down soon after. At work, exhausted, he
began to tremble uncontrollably, his motor tics
relentless. Bell left the store to take a break, resting
in his truck parked outside, but his supervisor
demanded that he return. Bell went to his mental
health provider to discuss his symptoms.
O’Reilly then told Bell that before he could work
again, he would have to get his provider to fill out a
form confirming his fitness for duty. Bell’s provider
indicated that he would be fit to return to work a few
days later so long as he received an accommodation.
She later testified that she aimed to secure an
accommodation for Bell that would protect him
against “overwhelming stress” by preventing
O’Reilly from placing him “into the kind of working
schedule that he had had, working 50 hours or more.”
The two settled on the following language for the
proposed accommodation: “Mr. Bell because of his
mental health issues should not be scheduled for
more than 9 hours 5 days a week.” Bell’s provider
checked a box indicating that Bell’s “[m]ax hours per
day of work” should be restricted to nine hours. Bell
faxed this form to O’Reilly.
O’Reilly denied Bell’s requested accommodation.
Bell’s district manager said that O’Reilly understood
the form to be a hard cap on his worked hours; after
Bell made clear that he intended only to request a
restriction on his scheduled hours, Bell’s district
manager directed Bell to have his provider fill out a
revised form to that effect.
The provider declined to revise the form, deeming
the original language adequate to convey Bell’s request.
Instead, she invited O’Reilly to discuss the request

App.4a
with her if the company needed clarification. O’Reilly
never did but eventually terminated Bell.
Bell sued O’Reilly in the federal district court in
Maine. Among other claims, Bell alleged that O’Reilly
violated the ADA and the MHRA when it failed to
provide Bell with a reasonable accommodation. Those
claims survived summary judgment and went to
trial.
Bell’s theory of the case was that he needed
O’Reilly to accommodate his disability, he had
requested a reasonable accommodation, and O’Reilly
had rejected it. O’Reilly had enlisted Bell to work
“close to 100 hours a week, [and] his meds couldn’t
keep up.” With the restriction, Bell’s counsel argued,
Bell would have “some protection” against this enlistment. But O’Reilly denied his request.
O’Reilly answered that the requested accommodation would have prevented Bell from performing a store
manager’s essential job functions. O’Reilly’s witnesses
testified that it was essential for store managers to
work at least fifty hours a week, with the flexibility
to do more, and Bell’s requested restriction would
have left him locked into a schedule below O’Reilly’s
“bare minimum scheduling requirement.”
Bell replied that because his accommodation
restricted only scheduled hours, he would have been
able to work unscheduled hours. And he had confirmed
in a letter to O’Reilly that he could work unscheduled
hours “on occasion . . . [i]f necessary.” Bell testified that
“if there were no other option, then [he] would have a
found a way” to work the hours needed to get the job
done.

App.5a
In closing O’Reilly’s counsel pivoted, telling the
jury that “if he can do it, that means he doesn’t need
the accommodation. . . . [and] he is at least not entitled
to an accommodation under the law.” He emphasized
that “the judge will instruct you that even if you
have a disability, you’re entitled to an accommodation
only if you need that accommodation in order to do
the essential functions of your job.” The judge gave
this instruction, and the jury returned a verdict for
O’Reilly on all claims.
Bell timely appealed, and among other challenges
argues that the district court erred in instructing the
jury that to succeed on a claim that an employer failed
to provide a reasonable accommodation, a plaintiff must
prove that “he needed an accommodation to perform
the essential functions of his job.” Bell contends that
a disabled employee who “experiences difficulty” due
to his disability “in performing his job” may ultimately
be entitled to a reasonable accommodation.
Where, as here, a motion for a new trial relies on
“preserved claims of instructional error,” the “questions
as to whether the jury instructions capture the
essence of the applicable law” are reviewed de novo.
Thomas & Betts Corp. v. New Albertson’s, Inc., 915
F.3d 36, 49 (1st Cir. 2019) (internal quotations omitted).
Following the parties, we treat the MHRA as
“coextensive with the ADA in all material respects.”
Richardson v. Friendly Ice Cream Corp., 594 F.3d 69,
74 n.2 (1st Cir. 2010).
The district court erred here when it instructed the
jury that, for a disabled employee to make out a failureto-accommodate claim, he must demonstrate that he
needed an accommodation to perform the essential
functions of his job. Giving the jury instructions their

App.6a
“most natural reading,” United States v. Pizarro, 772
F.3d 284, 300 (1st Cir. 2014), they required an
employee to demonstrate that he could not perform
the essential functions of his job without accommodation.
An employee who can, with some difficulty, perform the essential functions of his job without
accommodation remains eligible to request and receive
a reasonable accommodation. The ADA prohibits an
employer from “not making reasonable accommodations to the known physical or mental limitations of an
otherwise qualified individual with a disability who
is an applicant or employee.” 42 U.S.C. § 12112
(b)(5)(A). A “qualified individual” is “an individual
who, with or without reasonable accommodation, can
perform the essential functions of the employment
position that such individual holds or desires.” Id.
§ 12111(8) (emphasis added).
For this reason, to make out a failure to accommodate claim, a plaintiff need only show that: “(1) he
is a handicapped person within the meaning of the
Act; (2) he is nonetheless qualified to perform the
essential functions of the job (with or without
reasonable accommodation); and (3) the employer
knew of the disability but declined to reasonably
accommodate it upon request.” Sepúlveda-Vargas v.
Caribbean Rests., LLC, 888 F.3d 549, 553 (1st Cir.
2018). A plaintiff can make out this kind of claim even
when an employer has “pronounced itself fully satisfied
with [the disabled employee]’s level of performance”
before a request. Calero-Cerezo v. U.S. Dep’t of Just.,
355 F.3d 6, 23 (1st Cir. 2004).
Vacation is appropriate “only if the error is
determined to have been prejudicial based on a

App.7a
review of the record as a whole,” Sony BMG Music
Ent. v. Tenenbaum, 660 F.3d 487, 503 (1st Cir. 2011)
(internal quotations omitted), but the error here
prejudiced Bell. By instructing the jury that an
employee must demonstrate that he needed an
accommodation to perform the essential functions of
his job, the district court wrongly limited O’Reilly’s
potential liability.
O’Reilly responds that there was no prejudice
because the challenged instruction was “functionally
equivalent” to another instruction from the district
court: that an employee must demonstrate “that the
proposed accommodation would enable him to perform
the essential functions of the job.” But this instruction
does not say “by implication” whether the employee
must demonstrate “that without the accommodation
he was ‘unable’ to do” the essential functions of the
job. Rather, the instruction expresses only the wellsettled rule that a proposed accommodation must be
“effective,” leaving an employee able to perform the
essential functions of the job. Trahan v. Wayfair Me.,
LLC, 957 F.3d 54, 66 (1st Cir. 2020).
O’Reilly also argues that there was no prejudice
because no reasonable jury could have found that
Bell would have been able to perform the essential
functions of his job with O’Reilly: it was essential
that O’Reilly’s store managers work at least fifty
hours a week, with the flexibility to do more, but Bell
had requested a scheduling restriction that would
have left him unable to fulfill this role. On this issue
and on this record, a jury could have found for Bell.
The district court’s judgment is vacated and the
case is remanded for a new trial on Bell’s failure-to-

App.8a
accommodate claim. Costs are to be taxed in favor of
Bell.
It is so ordered.

App.9a
JUDGMENT OF THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT
(AUGUST 21, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
BRIAN BELL,

Plaintiff, Appellant,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’Reilly Auto Parts,

Defendant, Appellee.

________________________
No. 18-2164

Before: BARRON, SELYA, and BOUDIN,
Circuit Judges.
This cause came on to be heard on appeal from
the United States District Court for the District of
Maine and was argued by counsel.
Upon consideration whereof, it is now here
ordered, adjudged and decreed as follows: The district
court’s judgment is vacated, and the case is remanded
for a new trial on Brian Bell’s failure-to-accommodate
claim. Costs are taxed in favor of Brian Bell.

App.10a
By the Court:
Maria R. Hamilton
Clerk
cc:

Hon. Jon David Levy
Christa Berry
Clerk
United States District Court
for the District of Maine
Allan K. Townsend
Chad T. Hansen
Christopher C. Taintor
Robert W. Bower Jr

App.11a
ANNOUNCEMENT OF JURY VERDICT
(JULY 20, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
Docket No. 1:16-cv-00501-JDL
Volume V of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 20, 2018 Transcript, p. 842]
. . . closings, and the jury would be directed to
retire to the jury room to deliberate.
MR. HANSEN: Okay.
THE COURT: What do you mean by address the
schedule after that?
MR. HANSEN: Well, just in terms of—
THE COURT: How late we will go tonight?

App.12a
MR. HANSEN: Exactly.
THE COURT: Yeah, I anticipate if we were in that
circumstance going as long as we need to go to
get a verdict. MR. HANSEN: Okay.
THE COURT: Within reason, of course.
All right. Please summons the jury.
(The jury entered the courtroom at 5:11 p.m.)
THE COURT: The clerk will receive the verdict form
from the foreperson. Please be seated.
The clerk will publish the verdict.
THE CLERK: Ladies and gentlemen of the jury, this
is your verdict as the Court has received it. In
the case of Brian Bell v. O’Reilly Auto Enterprises,
LLC, DBA O’Reilly Auto Parts, the case number
is 1:16-cv-00501-JDL. Disability discrimination,
Number 1, has Brian Bell proven to you by a
preponderance of the evidence that O’Reilly Auto
Enterprises, LLC is liable for disability discrimination under the Americans with Disability
Act? You indicated no.
After answering question Number 1, proceed to
question Number 2. Has Brian Bell proven to you
by a preponderance of the evidence that O’Reilly
Auto Enterprises, LLC is liable for disability
discrimination under the Maine Human Rights
Act? You indicated no.
After answering question Number 2, proceed to
question Number 3. Failure to accommodate,
Number 3, has Brian Bell proven to you by a
preponderance of the evidence that O’Reilly Auto
Enterprises, LLC failed to provide him with a

App.13a
reasonable accommodation as required by the
Americans with Disability Act? You answered no.
After answering question Number 3, proceed to
question Number 4. Number 4, has Brian Bell
proven to you by a preponderance of the evidence
that O’Reilly Auto Enterprises, LLC failed to
provide him with reasonable accommodation as
required by the Maine Human Rights Act? You
answered no.
If you answered question Number 3 and/or question Number 4, yes, proceed to question Number
5. If you answered both questions Number 3 and
Number 4 no, do not answer question Number 5
and proceed to question Number 6. Has—the jury
did not answer Number 5.
Unlawful retaliation, question Number 6. Has
Brian Bell proven to you by a preponderance of
the evidence that O’Reilly Auto Enterprises, LLC
is liable for unlawful retaliation under the Americans with Disabilities Act? You answered no.
After answering question Number 6, proceed to
question Number 7. Number 7, has Brian Bell
proven to you by a preponderance of the evidence
that O’Reilly Auto Enterprises, LLC is liable for
unlawful retaliation under the Maine Human
Rights Act? You answered no.
After answering question Number 7, answer
questions Number 8 and 9 regarding damages if
any one or more of the following applies, A, your
answer to question Number 1 was yes; B, your
answer to question Number 2 was yes; C your
answer to Number 3 was yes, and your question
to Number 5 was no; D your answer to question

App.14a
Number 4 was yes and your answer to question
Number 5 was no; E, your answer to question
Number 6 was yes; or F, your answer to Number
7 was yes, otherwise do not answers questions 8
and 9 regarding damages and date and sign the
jury verdict form.
The section for damages are not completed.
Madam Foreperson, is this your verdict?
THE FOREPERSON: Yes.
THE CLERK: Ladies and gentlemen of the jury, is
this your verdict?
THE JUROR: Yes.
THE COURT: Thank you.
Does either party wish to have the jury polled?
MR. HANSEN: No, Your Honor.
MR. TAINTOR: No, Your Honor.

App.15a
ORDER OF THE UNITED STATES
COURT OF APPEALS FOR THE FIRST CIRCUIT
DENYING PETITION FOR REHEARING
(OCTOBER 2, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
BRIAN BELL,

Plaintiff, Appellant,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’Reilly Auto Parts,

Defendant, Appellee.

________________________
No. 18-2164

Before: HOWARD, Chief Judge, TORRUELLA,
SELYA, BOUDIN, LYNCH, THOMPSON,
KAYATTA, and BARRON, Circuit Judges.
Pursuant to First Circuit Internal Operating
Procedure X(C), the petition for rehearing en banc
has also been treated as a petition for rehearing
before the original panel. The petition for rehearing
having been denied by the panel of judges who
decided the case, and the petition for rehearing en
 Judge Kayatta is recused and did not participate in the consideration of this matter.

App.16a
banc having been submitted to the active judges of
this court and a majority of the judges not having
voted that the case be heard en banc, it is ordered
that the petition for rehearing and petition for
rehearing en banc be denied.
By the Court:
Maria R. Hamilton
Clerk
cc:

Allan K. Townsend
Chad T. Hansen
Christopher C. Taintor
Robert W. Bower Jr.

App.17a
RELEVANT STATUTORY PROVISION
42 U.S.C. § 12112
42 U.S.C. § 12112—Discrimination
(a) General Rule
No covered entity shall discriminate against a
qualified individual on the basis of disability in
regard to job application procedures, the hiring,
advancement, or discharge of employees, employee
compensation, job training, and other terms,
conditions, and privileges of employment.
(b) Construction
As used in subsection (a), the term “discriminate
against a qualified individual on the basis of disability” includes—
(1) limiting, segregating, or classifying a job
applicant or employee in a way that adversely
affects the opportunities or status of such
applicant or employee because of the disability
of such applicant or employee;
(2) participating in a contractual or other
arrangement or relationship that has the
effect of subjecting a covered entity’s qualified
applicant or employee with a disability to
the discrimination prohibited by this subchapter (such relationship includes a
relationship with an employment or referral
agency, labor union, an organization providing
fringe benefits to an employee of the covered

App.18a
entity, or an organization providing training
and apprenticeship programs);
(3) utilizing standards, criteria, or methods of
administration—
(A) that have the effect of discrimination
on the basis of disability; or
(B) that perpetuate the discrimination of
others who are subject to common
administrative control;
(4) excluding or otherwise denying equal jobs
or benefits to a qualified individual because
of the known disability of an individual with
whom the qualified individual is known to
have a relationship or association;
(5)
(A) not making reasonable accommodations
to the known physical or mental limitations of an otherwise qualified individual with a disability who is an applicant or employee, unless such covered
entity can demonstrate that the accommodation would impose an undue hardship on the operation of the business of
such covered entity; or
(B) denying employment opportunities to a
job applicant or employee who is an
otherwise qualified individual with a
disability, if such denial is based on the
need of such covered entity to make
reasonable accommodation to the
physical or mental impairments of the
employee or applicant;

App.19a
(6) using qualification standards, employment
tests or other selection criteria that screen
out or tend to screen out an individual with
a disability or a class of individuals with
disabilities unless the standard, test or
other selection criteria, as used by the
covered entity, is shown to be job-related for
the position in question and is consistent
with business necessity; and
(7) failing to select and administer tests concerning employment in the most effective
manner to ensure that, when such test is
administered to a job applicant or employee
who has a disability that impairs sensory,
manual, or speaking skills, such test results
accurately reflect the skills, aptitude, or
whatever other factor of such applicant or
employee that such test purports to measure,
rather than reflecting the impaired sensory,
manual, or speaking skills of such employee
or applicant (except where such skills are
the factors that the test purports to measure).
(c) Covered Entities in Foreign Countries
(1) In General
It shall not be unlawful under this section for a
covered entity to take any action that constitutes
discrimination under this section with respect to
an employee in a workplace in a foreign country
if compliance with this section would cause such
covered entity to violate the law of the foreign
country in which such workplace is located.

App.20a
(2) Control of Corporation
(A) Presumption
If an employer controls a corporation whose place
of incorporation is a foreign country, any practice
that constitutes discrimination under this section
and is engaged in by such corporation shall be
presumed to be engaged in by such employer.
(B) Exception
This section shall not apply with respect to the
foreign operations of an employer that is a foreign
person not controlled by an American employer.
(C) Determination
For purposes of this paragraph, the determination
of whether an employer controls a corporation
shall be based on—
(i)

the interrelation of operations;

(ii) the common management;
(iii) the centralized control of labor relations;
and
(iv) the common ownership or financial control,
of the employer and the corporation.
(d) Medical Examinations and Inquiries
(1) In General
The prohibition against discrimination as referred
to in subsection (a)shall include medical examinations and inquiries.

App.21a
(2) Preemployment
(A) Prohibited examination or inquiry
Except as provided in paragraph (3), a covered
entity shall not conduct a medical examination
or make inquiries of a job applicant as to whether
such applicant is an individual with a disability
or as to the nature or severity of such disability.
(B) Acceptable inquiry
A covered entity may make preemployment
inquiries into the ability of an applicant to perform job-related functions.
(3) Employment Entrance Examination
A covered entity may require a medical examination after an offer of employment has been made
to a job applicant and prior to the commencement
of the employment duties of such applicant, and
may condition an offer of employment on the
results of such examination, if—
(A) all entering employees are subjected to such
an examination regardless of disability;
(B) information obtained regarding the medical
condition or history of the applicant is
collected and maintained on separate forms
and in separate medical files and is treated
as a confidential medical record, except
that—
(i)

supervisors and managers may be
informed regarding necessary restrictions
on the work or duties of the employee
and necessary accommodations;

App.22a
(ii) first aid and safety personnel may be
informed, when appropriate, if the disability might require emergency treatment; and
(iii) government officials investigating compliance with this chapter shall be provided
relevant information on request; and
(C) the results of such examination are used
only in accordance with this subchapter.
(4) Examination and Inquiry
(A) Prohibited Examinations and Inquiries
A covered entity shall not require a medical examination and shall not make inquiries of an
employee as to whether such employee is an
individual with a disability or as to the nature or
severity of the disability, unless such examination
or inquiry is shown to be job related and consistent with business necessity.
(B) Acceptable Examinations and Inquiries
A covered entity may conduct voluntary medical
examinations, including voluntary medical histories, which are part of an employee health
program available to employees at that work
site. A covered entity may make inquiries into
the ability of an employee to perform job-related
functions.

App.23a
(C) Requirement
Information obtained under subparagraph (B)
regarding the medical condition or history of any
employee are subject to the requirements of subparagraphs (B) and (C) of paragraph (3).

App.24a
PLAINTIFF’S PROPOSED JURY INSTRUCTIONS
(JULY 3, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
Civil Action No. 1:16-cv-00501-JDL
Pursuant to the Court’s Report of Final Pretrial
Conference and Order (ECF No. 52 at 3), Plaintiff
proposes the following jury instructions for this case.
I.

General Instructions
A. Burden of Proof

Throughout my instructions I will use the term
“preponderance of the evidence” when I instruct you
on the burden of proof that either Mr. Bell or
Defendant must meet. These instructions will ask
you to determine whether one party or the other has
proven something by a “preponderance of the evidence.”
To determine whether something has been proven by

App.25a
a “preponderance of the evidence,” you must determine
whether, in light of all of the facts, you believe it is
more likely true than not.1
B. Evidence
The evidence from which you are to decide what
the facts are consists of (1) sworn testimony of
witnesses, here in Court or by deposition, both on
direct and cross-examination, regardless of who called
the witness; (2) exhibits that have been received into
evidence; and (3) stipulated facts that I have provided
to you.2
C. What is Not Evidence
In reaching your verdict you may consider only
the testimony, exhibits, and stipulated facts received
into evidence. Certain things are not evidence and
you may not consider them in deciding what the facts
are. I will list them for you.
1.

Arguments and statements by lawyers are
not evidence;

2.

Questions and objections by lawyers are not
evidence;

3.

Testimony I have instructed you to disregard
is not evidence; and

4.

Anything you may have seen or heard when
the Court was not in session is not evidence.3

1 Adapted from jury instructions in Prescott v. Rumford
Hospital, 2:13-cv-00460-JDL (D. Me.) (Exhibit 1).
2 Adapted from Prescott jury instructions.
3 Adapted from Prescott jury instructions.

App.26a
D. Direct and Circumstantial Evidence
There are two kinds of evidence: direct and
circumstantial. Direct evidence is direct proof of a
fact, such as testimony of an eyewitness. Circumstantial
evidence is indirect evidence, that is, proof of a fact
or chain of facts from which you could draw the
inference, by reason and common sense, that another
fact exists, even though it has not been proven
directly. You are entitled to consider both kinds of
evidence. The law permits you to give equal weight
to both, but it is for you to decide how much weight to
give to any evidence.4
E. Credibility of Witnesses
In deciding what the facts are, you must consider
all of the evidence. In doing this, you must decide
which testimony to believe and which testimony not
to believe. You may disbelieve all or any part of any
witness’s testimony. You might want to take into
consideration such factors as the witness’s conduct
and demeanor while testifying; their apparent fairness
or any bias they may have displayed; any interest
you may discern that they may have in the outcome
of the case; any prejudice they may have shown;
their opportunities for seeing and knowing the things
about which they have testified; the reasonableness
or unreasonableness of the events that they have
related to you in their testimony; and any other facts
or circumstances disclosed by the evidence that tend
to corroborate or contradict their versions of the events.
In deciding whether to believe a witness, keep in
mind that people sometimes forget things. You need
4 Adapted from Prescott jury instructions.

App.27a
to consider therefore whether a contradiction is an
innocent lapse of memory or an intentional falsehood,
and that may depend on whether it has to do with an
important fact or with only a small detail.
The weight of the evidence presented by each
side does not necessarily depend on the number of
witnesses testifying on one side or the other. You
must consider all the evidence in the case, and you
may decide that the testimony of a smaller number
of witnesses on one side has greater weight than that
of a larger number on the other or vice versa.
All of these matters are for you to consider in
deciding the facts.5
F. Opinion Evidence, Expert Witnesses
You have heard testimony from people described
as experts. People who, by education and experience,
have become expert in some field may state their
opinion in that field and may also state their reasons
for the opinion.
Expert opinion testimony should be judged like
any other testimony. You may accept it or reject it
and give it as much weight as you think it deserves,
considering the witness’s education and experience,
the reasons given for the opinion, and all the other
evidence in the case.6

5 Adapted from Prescott jury instructions.
6 Adapted from jury instructions given in Warren v. United
Parcel Service, Inc., 06-84-P-H (D. Me.) (Exhibit 2).

App.28a
G. Liability of Corporations
O’Reilly Auto Enterprises, LLC is a corporation.
Corporations can act only through their employees. A
corporation is responsible for the acts of its employees
when they are acting within their authority.
The fact that O’Reilly Auto Enterprises is a
corporation and Mr. Bell is an individual should not
affect your decision. All persons, whether they be
corporations or individuals, are equal before the law
and are entitled to the same fair and conscientious
consideration by you as any other person.7
II.

Rules of Law
A. Disability Discrimination
1. Introduction8

In this case, Mr. Bell makes a claim based on a
federal law known as the Americans with Disabilities
Act, which I will refer to as the ADA in these
instructions, and a state law known as the Maine
Human Rights Act, which I will refer to as the
MHRA.
Under both the ADA and MHRA, an employer
may not deprive a person with a disability of an
employment opportunity because of that disability, if
that person is able, with reasonable accommodation
if necessary, to perform the essential functions of the
7 Adapted from Prescott jury instructions.
8 This introductory instruction is adapted from the Third
Circuit’s Pattern Jury Instructions 9.0. See http://www.ca3.
uscourts.gov/sites/ca3/files/9_Chap_9_2018_March.pdf (visited
July 3, 2018).

App.29a
job. Terms such as “disability,” “qualified individual,”
and “reasonable accommodation” are defined by the
ADA and MHRA and I will instruct you on the
meaning of those terms.
Mr. Bell claims that because of his AttentionDeficit/Hyperactivity Disorder (ADHD), Tourette’s
syndrome, and/or Major Depressive Disorder O’Reilly
Auto Enterprises (1) prohibited him from working after
he made a request for a scheduling accommodation;
(2) offered him less pay for certain positions; and (3)
terminated his employment. Mr. Bell also claims
that O’Reilly Auto Enterprises refused to provide
him with a scheduling accommodation which he contends violated his right to reasonable accommodations
under the ADA and MHRA. And Mr. Bell also claims
that O’Reilly Auto Enterprises (1) prohibited him
from working after he made a request for a scheduling
accommodation; (2) offered him less pay for certain
positions; and (3) terminated his employment because
he requested a scheduling accommodation.
O’Reilly Auto Enterprises denies Mr. Bell’s claims.
Further, O’Reilly Auto Enterprises asserts that it
would have been an undue hardship for it to employ
Mr. Bell with the scheduling accommodation that he
requested. The term “undue hardship” is another
term defined by the ADA and MHRA and I will
instruct you on the meaning of that term as well.
As you listen to these instructions, please keep
in mind that many of the terms I will use, and you
will need to apply, have a special meaning under the
ADA and MHRA. So, please remember to consider
the specific definitions I give you, rather than using
your own opinion of what these terms mean.

App.30a
2. Purpose of the ADA and MHRA
In passing the ADA, Congress found that 43
million Americans suffer from one or more physical
or mental disabilities and that historically such
individuals had been subjected to discrimination in
critical areas such as employment. Congress further
concluded that such discrimination was costing the
United States billions of dollars in unnecessary
expenses resulting from dependency and nonproductivity. Accordingly, Congress found that the
proper goal for our Nation is to assure that
individuals with disabilities have the opportunity to
attain economic self-sufficiency by eliminating discrimination in employment against them.9
It is also the policy of the State of Maine as expressed in the Maine Human Rights Act (“MHRA”)
to prohibit discrimination on the basis of disability in
order to ensure that disabled individuals have life
with dignity.10
3. Disability Discrimination
(Disparate Treatment)11
Mr. Bell accuses O’Reilly Auto Enterprises of
disability discrimination. Specifically, he claims that
because of his disability O’Reilly Auto Enterprises (1)
9 42 U.S.C. § 12101; see Loeb v. Textron, Inc., 600 F.2d 1003 (1st
Cir. 1979) (under discrimination laws, it would be useful to
discuss with the jury policies underlying law and plaintiff’s
rights thereunder).
10 5 M.R.S.A. § 4552; Loeb, 600 F.2d at 1003.
11 Except where indicated, this instruction is based on the
Court’s Pattern Jury Instruction 3.1.

App.31a
prohibited him from working after he made a request
for a scheduling accommodation; (2) offered him less
pay for certain positions; and (3) terminated his
employment. To succeed on these claims, under the
ADA and MHRA, Mr. Bell must prove by a preponderance of the evidence all of the following:
 First, Mr. Bell had a disability under either
the ADA or MHRA. I will instruct you on what
the term “disability” means in a moment.12
 Second, Mr. Bell was a qualified individual,
which means that he possessed the necessary
skill, experience, education, and other jobrelated requirements for the Store Manager
position in the Belfast, Maine, store and could
have continued to perform the essential
functions of that position if O’Reilly Auto
Enterprises had granted his request for a
scheduling accommodation as a reasonable
accommodation for his disabilities.
 Third, O’Reilly Auto Enterprises knew that
Mr. Bell had ADHD, Tourette’s syndrome, or
Major Depressive Disorder; and
 Fourth, that were in not for Mr. Bell’s ADHD,
Tourette’s syndrome, or Major Depressive Disorder, O’Reilly Auto Enterprises would not
have (1) prohibited him from working after he
made a request for a scheduling accommodation; (2) offered him less pay for certain
positions;
and/or
(3)
terminated
his
employment.
12 This element is based on Eleventh Circuit’s Pattern Jury
Instruction 4.11.

App.32a
In order to decide what the essential functions of
a job are, you may consider the following factors:
1.

Written job descriptions;

2.

The employer’s judgment as to
functions of the job are essential;

3.

The amount of time spent on the job performing the function in question;

4.

Consequences of not requiring the person to
perform the function;

5.

The work experience of people who have held
the job;

6.

The current work experience of people in
similar jobs;

7.

Whether the reason the position exists is to
perform the function;

8.

Whether there are a limited number of
employees available among whom the performance of the function can be distributed;
and

9.

Whether the function is highly specialized
and the individual in the position was hired
for his or her expertise or ability to perform
the function.

which

No one factor is necessarily controlling. You should
consider all of the evidence in deciding whether a job
function is essential.
Mr. Bell need not show that disability discrimination was the only or predominant factor that
motivated O’Reilly Auto Enterprises. In fact, you may
decide that other factors were involved as well in

App.33a
O’Reilly Auto Enterprises’ decision-making process. In
that event, in order for you to find for Mr. Bell, you
must find that he has proven that, although there were
other factors, he would not have been (1) prohibited him
from working after he made a request for a scheduling
accommodation; (2) offered less pay for certain
positions; and/or (3) terminated without disability
discrimination.
An employer is free to prohibit an employee from
working, offer low pay, or terminate his employment
for any nondiscriminatory reason even if its business
judgment seems objectively unwise. But you may consider the believability of an explanation in determining
whether it is a cover-up or pretext for discrimination.
In order to succeed on the discrimination claim, Mr.
Bell must persuade you, by a preponderance of the
evidence, that were it not for disability discrimination,
he would not have been (1) prohibited him from
working after he made a request for a scheduling
accommodation; (2) offered less pay for certain
positions; and/or (3) terminated.
Mr. Bell is not required to produce direct evidence
of unlawful motive. You may infer knowledge and/or
motive as a matter of reason and common sense
from the existence of other evidence—for example,
explanations that you find were really pretextual.
“Pretextual” means false or, though true, not the real
reason for the action taken.
O’Reilly Auto Enterprises contends that it did
not know Mr. Bell had a disability under the ADA or
MHRA. However, if O’Reilly Auto Enterprises had
reason to know that Mr. Bell had a disability and he
was having problems at work because of the disability,
O’Reilly Auto Enterprises had to engage in discussions

App.34a
with him and, if necessary, with his doctor, to decide
if he was actually disabled under the ADA or MHRA.13
4. Definition of Disability under ADA and
MHRA
The term “disability” has different meanings
under the ADA and MHRA. I will first instruct you
on what the term means under the ADA and then I
will instruct you on what the term means under the
MHRA.
a. ADA14
Under the ADA, a “disability” is a “physical or
mental impairment” that “substantially limits” one
or more “major life activities.” A “physical impairment”
is any condition that prevents the body from functioning
normally. A “mental impairment” is any condition
that prevents the mind from functioning normally.15
A “major life activity” is an activity that is
centrally important to everyday life, including the
operation of major bodily functions.16

13 This paragraph is adapted from the Seventh Circuit’s Model
Jury Instruction 4.08 See http://www.ca7.uscourts.gov/patternjury-instructions/7th_cir_civil_instructions.pdf. (visited July 3,
2018).
14 Except where otherwise noted, this instruction is adapted
from Eleventh Circuit Model Jury Instruction 4.11. See http://
www.ca11.uscourts.gov/sites/default/files/courtdocs/clk/
FormCivilPatternJuryInstruction.pdf. (visited July 3, 2018)
15 3d Circuit instruction 9.2.1
16 Eleventh Circuit Model Jury Instruction 4.12.

App.35a
Brain functioning, neurological functioning,
sleeping, and the ability to concentrate are major life
activities.17
An impairment “substantially limits” a major
life activity if it prevents or significantly restricts a
person from performing the activity, compared to an
average person in the general population. An
impairment that substantially limits one major life
activity is a disability even if it does not limit any
other major life activity.
To decide whether Mr. Bell’s ADHD, Tourette’s
syndrome, or Major Depressive Disorder substantially
limited his brain functioning, neurological functioning,
ability to concentrate, or ability to sleep, it does not
matter that his ADHD, Tourette’s syndrome, or Major
Depressive Disorder can be corrected by the use of
medication, therapy, or other medical assistance. In
other words, when you consider whether these conditions are disabilities, you should consider how they
would affect Mr. Bell if he was not taking any
medication or receiving medical care.18
Furthermore, if Mr. Bell’s ADHD, Tourette’s
syndrome, or Major Depressive Disorder are not
always a problem but flare up from time to time, that
can be a disability if it would substantially limit a
major life activity when active.
Applying these principles, some types of impairments will, in virtually all cases, result in a determination that the individual with the impairment is
disabled under the ADA. For example, it should be
17 See 42 U.S.C. § 12102(2).
18 42 U.S.C. § 12102(4)(E).

App.36a
easily concluded that Major Depressive Disorder substantially limits the major life activity of brain
function.19
Mr. Bell can also establish that he had a disability under the ADA by proving that O’Reilly Auto
Enterprises regarded him as having a disability. A
person qualifies as disabled if, among other things,
that person is regarded by the employer has having a
physical or mental impairment.20
b. MHRA21
Now I will instruct you on the MHRA’s definition
of disability. If an individual is disabled under the
ADA, he is also disabled under the MHRA. However,
the MHRA is broader than the ADA and, in addition
to covering individuals who had or were regarded as
having impairments that substantially limit a major
life activity, it also includes individuals who had or
were regarded as having impairments that significantly
impair physical or mental health. For an impairment
to significantly impair physical or mental health, it
must have an actual or expected duration of more than
6 months and impair health to a significant extent as
compared to what is ordinarily experienced in the
general population.
Furthermore, under the MHRA, Major Depressive
Disorder is a disability regardless of how severe it is.
So, if you find that Mr. Bell had Major Depressive
19 29 C.F.R. § 1630.2(j)(3)(ii)-(iii)
20 29 C.F.R. § 1630.2(l).
21 This instruction is based on the MHRA definition of
disability at 5 M.R.S.A. § 4553-A.

App.37a
Disorder, you must find that he was disabled under
the MHRA.
5. Failure to Accommodate
The ADA and MHRA require employers to
provide reasonable accommodations to employees
who are disabled unless the accommodation would
impose an undue hardship on the employer.22
Mr. Bell has made a claim that O’Reilly Auto
Enterprises failed to provide him with a reasonable
accommodation, namely a schedule of 45 hours per
week with occasional work outside of scheduled hours.
To succeed on his claim, Mr. Bell must prove that he
had a disability under either the ADA or MHRA and
also the following by a preponderance of the evidence:
 First, that the proposed accommodation would
enable him to perform the essential functions
of the Store Manager position in the Belfast,
Maine store and that the proposed accommodation is, at least on the face of things, reasonable.
 Second, that Mr. Bell made a request for the
accommodation that was sufficiently direct
and specific so as to put O’Reilly Auto Enterprises on notice of the need for an accommodation; and
 Third, that O’Reilly Auto Enterprises did not
reasonably accommodate his disability.23
22 Adapted from the Court’s Pattern Jury Instruction 3.2.
23 These three elements are taken from the Prescott jury
instructions.

App.38a
If Mr. Bell meets this burden, then O’Reilly Auto
Enterprises bears the burden of proving that the
accommodation Mr. Bell proposed would have been an
undue hardship. Mr. Bell need not show that O’Reilly
Auto Enterprises had discriminatory intent. In a
moment, I will explain the legal definition of undue
hardship but, first, I want to give you further
information on the process of providing reasonable
accommodations and what reasonable accommodations
are.24
A reasonable accommodation is a modification or
adjustment to the work environment or to the manner
in which a job is performed. You should determine
what is reasonable based on the facts as you find
them. The duty to provide reasonable accommodation
is a continuing one and so may require more than
one effort.25 If a reasonable accommodation turns out
to be ineffective and the employee with a disability
remains unable to perform an essential function, the
employer is not required to continue the accommodation
but must consider whether there would be an alternative reasonable accommodation that would not
pose an undue hardship.26
By way of illustration, under the ADA and
MHRA, a “reasonable accommodation” may include:
24 This paragraph is adapted from the Court’s Pattern Jury
Instruction 3.2.
25 This paragraph, up to this point, is adapted from the
Prescott jury instructions.
26 EEOC Enforcement Guidance: Reasonable Accommodation and
Undue Hardship Under the Americans with Disabilities Act at
32 (https://www.eeoc.gov/policy/docs/accommodation.html#other)
(visited July 3, 2018).

App.39a
 Part-time or modified work schedules;
 Job restructuring;
 Making existing facilities used by employees
readily accessible to and usable by individuals
with disabilities;
 Acquisition or modification of equipment or
devices;
 Appropriate adjustment or modifications of examinations, training materials, or policies;
 The provision of qualified readers or interpreters;
 Granting additional leave beyond that allowed
by the employer’s leave policy;
 Reassignment to a vacant position; and
 Other similar accommodations for individuals
with disabilities.27
Before considering reassignment as a reasonable
accommodation, employers should first consider those
accommodations that would enable an employee to
remain in his current position. Reassignment is the
reasonable accommodation of last resort and is required
only after it has been determined that: (1) there are
no effective accommodations that will enable the
employee to perform the essential functions of his
current position, or (2) all other reasonable accommodations would impose an undue hardship.28 Reassign27 This paragraph
instructions.

is

adapted

from

the

Prescott

jury

28 EEOC Enforcement Guidance: Reasonable Accommodation and
Undue Hardship Under the Americans with Disabilities Act

App.40a
ment may not be used to limit, segregate, or
otherwise discriminate against employees with disabilities by forcing reassignments to undesirable
positions. If reassignment is appropriate, employers
should reassign the individual to an equivalent
position, in terms of pay, status, etc., if the individual
is qualified, and if the position is vacant, within a
reasonable amount of time.29
A reasonable accommodation may also include
transferring non-essential job functions to another
employee. However, an employer does not have to
transfer essential job functions.30
Once an employer is aware of an employee’s disability and an accommodation has been requested,
the employer must discuss with the employee or, if
necessary, with his doctor whether there is a reasonable
accommodation that will permit him to perform the
job. Both the employer and the employee must
cooperate in this interactive process in good faith.
Neither party can win this case simply because the
other did not cooperate in an interactive process. But
you may consider whether a party cooperated in this
process in good faith in evaluating the merit of that
party’s claim that a reasonable accommodation did or

(https://www.eeoc.gov/policy/docs/accommodation.html#
reassignment) (visited July 3, 2018).
29 Language in this paragraph was taken from the Appendix to
EEOC regulation 29 C.F.R. § 1630.2(o) (https://www.gpo.gov/fdsys/
pkg/CFR-2011-title29-vol4/xml/CFR-2011-title29-vol4-part1630.
xml) (visited July 3, 2018).
30 This paragraph was adapted from Seventh Circuit Model
Jury Instruction 4.07.

App.41a
did not exist.31 An employer who fails to engage in
such an interactive process in good faith violates a
disabled employee’s rights if a reasonable accommodation would have been possible.32
If Mr. Bell establishes that O’Reilly Auto Enterprises failed to provide him with a reasonable
accommodation that would have enabled him to perform the essential functions of his Store Manager
position, you must find in favor of Mr. Bell on this
claim unless O’Reilly Auto Enterprises proves by a
preponderance of the evidence that the reasonable
accommodation would have been an undue hardship
for it. An “undue hardship,” under the ADA and
MHRA, is an action that would create significant difficulty or expense for O’Reilly Auto Enterprises, considering
 The nature and cost of the accommodation;
 The overall financial resources of O’Reilly
Auto Enterprises;
 The effect of the accommodation on expenses
and resources;
 The impact of the accommodation on the
operations of O’Reilly Auto Enterprises,
including the impact on the ability of other
employees to perform their duties and the
31 The language in the paragraph preceding this footnote was
taken from Seventh Circuit Model Jury Instruction 4.08 and
Third Circuit Model Jury Instruction 9.1.3.
32 See Taylor v. Phoenixville Sch. Dist., 184 F.3d 296, 317-18
(3d Cir. 1999) and Barnett v. U.S. Air, Inc., 228 F.3d 1105, 1116
(9th Cir. 2000), vacated sub nom. U.S. Airways, Inc. v. Barnett,
535 U.S. 391, 122 S. Ct. 1516, 152 L. Ed. 2d 589 (2002).

App.42a
impact on the employer’s ability to conduct
business.33 However, O’Reilly Auto Enterprises cannot prove an undue hardship by
showing that providing Mr. Bell’s requested
accommodation would have had a negative
impact on the morale of its other employees.34
In assessing the cost and effect of the accommodation on expenses and resources, you may consider whether O’Reilly Auto Enterprises could have
taken efforts to minimize the cost of the accommodation by spreading the costs over time.35
B. Retaliation36
Mr. Bell also accuses O’Reilly Auto Enterprises
of violating the MHRA and ADA by retaliating against
him for requesting an accommodation for his disability.
Under the law, requesting an accommodation for a
disability is a protected activity. To succeed on this
claim, Mr. Bell must prove by a preponderance of the
evidence that:
 First, he was engaged in a protected activity.
 Second, O’Reilly Auto Enterprises (1) prohibited him from working; (2) offered him less
33 The language in these bullets and the paragraph preceding
the bullets, to this point, is adapted from the Court’s Pattern
Jury Instruction 3.2.
34 Appendix to 29 C.F.R. § 1630.15(d) (https://www.gpo.gov/
fdsys/pkg/CFR-2011-title29-vol4/xml/CFR-2011-title29-vol4part1630.xml) (visited July 3, 2018).
35 See 5 M.R.S.A. § 4553(9-B)(K).
36 Except where specifically noted, this instruction is adapted
from the Prescott jury instructions.

App.43a
pay for certain positions; and/or (3) terminated
him after he requested an accommodation for
his disabilities.
 Third, but for engaging in the protected
activity, he would not have been (1) prohibited
from working; (2) offered less pay for certain
positions; and/or (3) terminated.
Mr. Bell is not required to prove that his request
for an accommodation had merit in order to prove
the retaliation claim, but he must have held a good
faith and objectively reasonable belief that it did.
Mr. Bell need not show that unlawful retaliation
was the only or predominant factor that motivated
O’Reilly Auto Enterprises. In fact, you may decide
that other factors were involved as well in O’Reilly
Auto Enterprises decisionmaking process. In that
event, in order for you to find for Mr. Bell, you must
find that he has proven that, although there were
other factors, he would not have been prohibited from
working or terminated but for unlawful retaliation.
Again, as I previously instructed you, an employer
is free to prohibit an employee from working, offer
low pay, or terminate his employment for any nondiscriminatory reason even if its business judgment
seems objectively unwise. But you may consider the
believability of an explanation in determining whether
it is a cover-up or pretext for retaliation. In order to
succeed on the retaliation claim, Mr. Bell must persuade you, by a preponderance of the evidence, that
were it not for his request for a scheduling accommodation, he would not have been (1) prohibited him
from working after he made a request for a scheduling

App.44a
accommodation; (2) offered less pay for certain
positions; and/or (3) terminated.
Mr. Bell is not required to produce direct evidence
of unlawful motive. You may infer knowledge and/or
motive as a matter of reason and common sense from
the existence of other evidence—for example, explanations that you find were really pretextual.
“Pretextual” mean false, or though true, not the real
reason for the action taken.
C. Damages37
I am now going to discuss damages issues.
However, the fact that I instruct you on damages
does not represent any view by me that you should or
should not find against O’Reilly Auto Enterprises.
If you find that O’Reilly Auto Enterprises unlawfully violated Mr. Bell’s rights by discriminating
against him on account of his ADHD, Tourette’s
syndrome, or Major Depressive Disorder; failing to
provide him with a reasonable accommodation; and/or
unlawfully retaliating against him as I have explained
to you, then you must determine the amount of
damages, if any, that Mr. Bell has sustained. You
must not make a compromise between the liability
and damages issues. You must determine the liability
issues first. You should proceed to the damages
issues only if you have determined that Mr. Bell has
proved that O’Reilly Auto Enterprises acted in violation
of one or more of the laws that I have described to
you today.
37 Except where otherwise noted, the instructions on damages
are adapted from the Prescott jury instructions.

App.45a
Mr. Bell is seeking back pay and compensatory
damages against O’Reilly Auto Enterprises.
Any damages you award must be based on the
evidence and on a finding by you that Mr. Bell has
convinced you that he has more likely than not been
damaged as he claims to have been damaged. Damages
may not be awarded on the basis of guesswork or
speculation, nor on the basis of passion, prejudice, or
sympathy. Damages must be established to a reasonable certainty, but not to a mathematical certainty.
If you find Mr. Bell is entitled to recover damages,
you must award an amount of damages that will
justly and fairly compensate him for the losses
resulting from the injuries sustained.
If you should find that Mr. Bell is entitled to
damages, in fixing the amount of your award of back
pay or compensatory damages, you may not add to
an otherwise just award for back pay or compensatory
damages any sum to punish O’Reilly Auto Enterprises,
or to serve as an example or warning to others. Nor
may you include in your award any sum for the court
costs or attorneys’ fees.
1. Back Pay Damages
If you find that Mr. Bell has proved by a preponderance of the evidence that O’Reilly Auto Enterprises engaged in unlawful disability discrimination;
failed to reasonably accommodate Mr. Bell’s ADHD,
Tourette’s syndrome, or Major Depressive Disorder;
and/or unlawfully retaliated against him, then you
may award lost wages, also called “back pay,” equal
to the value of salary and benefits that he would
have received from O’Reilly Auto Enterprises but for

App.46a
his termination up to the present, minus the value of
salary and benefits actually received by Mr. Bell to
the present.
Mr. Bell had a duty to mitigate his damages—
that is, to take reasonable steps that would reduce
the damages. If he failed to do so, then he is not
entitled to recover any damages that he could
reasonably have avoided incurring. O’Reilly Auto
Enterprises has the burden of proving by a preponderance of the evidence that Mr. Bell failed to
take such reasonable steps.38 To meet this burden,
O’Reilly Auto Enterprises must prove (1) that jobs
substantially equivalent to Mr. Bell’s Store Manager
position were available in the geographic area where
he resided and (2) Mr. Bell failed to use reasonable
diligence to find one of those substantially equivalent
jobs.39 A position is only “substantially equivalent” if
it provides virtually identical promotional opportunities, compensation, job responsibilities, working
conditions, and status.40

38 The language in this paragraph to this point was adapted
from the Court’s Pattern Jury Instruction 9.1.
39 See Quint v. A.E. Staley Mfg. Co., 172 F.3d 1, 16 (1st Cir.
1999).
40 See West v. Nabors Drilling USA, Inc., 330 F.3d 379, 393
(5th Cir. 2003); Donlin v. Philips Lighting N. Am. Corp., 581
F.3d 73, 85 (3d Cir. 2009); and Ford Motor Co. v. E.E.O.C., 458
U.S. 219, 231-32 (1982)(“Th[e] duty [of an employee to mitigate
their damages] . . . requires the claimant to use reasonable
diligence in finding other suitable employment. Although the
unemployed or underemployed claimant need not go into
another line of work, accept a demotion, or take a demeaning
position he forfeits his right to back pay if he refuses a job

App.47a
2. Compensatory Damages
If you find that Mr. Bell has proved by a preponderance of the evidence that O’Reilly Auto Enterprises engaged in unlawful disability discrimination;
failed to reasonably accommodate Mr. Bell’s ADHD,
Tourette’s syndrome, or Major Depressive Disorder;
and/or unlawfully retaliated against him, then you may
award compensatory damages. Compensatory damages
are awarded for emotional pain, suffering, inconvenience, mental anguish, loss of enjoyment of life,
and other noneconomic losses if you determine that
Mr. Bell has proven by a preponderance of the
evidence that he experienced any of these consequences
as a result of O’Reilly Auto Enterprises’ disability
discrimination, failure to accommodate his disability,
and/or unlawful retaliation. Compensatory damages
are not allowed as a punishment and cannot be
imposed or increased in order to penalize O’Reilly
Auto Enterprises.
No evidence of the monetary value of intangible
things like emotional pain, suffering, inconvenience,
mental anguish, loss of enjoyment of life, and other
noneconomic losses is available and there is no
standard I can give you for fixing any compensation
to be awarded for these injuries. Even though it is
difficult to establish a standard of measurement for
these damages, that difficulty is not grounds for
denying recovery on this element of damages. You
must, therefore, make the best and most reasonable
estimate you can, not from a personal point of view,
but from a fair and impartial point of view, of the
substantially equivalent to the one he was denied.”) (footnotes
omitted).

App.48a
amount of emotional pain, suffering, inconvenience,
mental anguish, loss of enjoyment of life, and other
noneconomic losses you find that Mr. Bell has undergone and can probably be expected to suffer in the
future as a result of O’Reilly Auto Enterprises’ conduct. And you must place a monetary value on this,
attempting to come to a conclusion that will be fair
and just to both of the parties. This will be difficult
for you to measure in terms of dollars and cents, but
there is no other rule I can give you for assessing this
element of damages. If you have found in favor of Mr.
Bell but find that his damages have no monetary
value, you may award him nominal or token
damages such as one dollar ($1.00) or some other
minimal amount.
3. Punitive Damages41
Now that you have rendered a verdict and found
O’Reilly Auto Enterprises liable, you need to consider
whether to award punitive damages against O’Reilly
Auto Enterprises. You may award punitive damages
under federal law only if you find that Mr. Bell has
proven by a preponderance of the evidence that
O’Reilly Auto Enterprises has engaged in intentional
discrimination and has done so with malice or reckless
indifference to Mr. Bell’s protected rights. “Malice”
means that O’Reilly Auto Enterprises’ conduct was
motivated by ill will towards Mr. Bell because of his
disability, his request for or his need of reasonable
accommodation. “Reckless indifference” means that
O’Reilly Auto Enterprises knew or should have known
that Mr. Bell’s rights would be violated by its actions
41 Except where specifically indicated, this punitive damages
instruction was adapted from the Prescott jury instructions.

App.49a
or omissions. Under state law, Mr. Bell also must
prove either “malice” or “reckless indifference” by clear
and convincing evidence.42 This clear and convincing
evidence standard is different than the preponderance
of the evidence standard that I described earlier. To
determine that something has been proven by clear
and convincing evidence, you must be convinced that
it is highly probable.43
If you decide to award punitive damages, the
amount to be awarded is within your sound discretion.
The purpose of a punitive damage award is to punish
a defendant or to deter a defendant and others from
similar conduct in the future. Thus, in deciding
whether to award punitive damages, you should consider whether O’Reilly Auto Enterprises may be
adequately punished by an award of compensatory
damages only, or whether the conduct is so malicious
or reckless that compensatory damages are inadequate
to punish the wrongful conduct. The amount of punitive
damages that you award must be reasonably related
to the harm to Mr. Bell, including the harm caused
by the reprehensibility of O’Reilly Auto Enterprises’
conduct. You may consider whether punitive damages
are likely to deter or prevent other persons or
corporations from performing wrongful acts similar
to those O’Reilly Auto Enterprises is alleged to have
committed.
Other factors you may consider in determining
an appropriate amount of punitive damages include,
but are not limited to, whether Mr. Bell was financially
42 Batchelder v. Realty Res. Hosp., LLC, 914 A.2d 1116, 1124
(Me. 2007).
43 Tuttle v. Raymond, 494 A.2d 1353, 1363 (Me. 1985).

App.50a
vulnerable; whether O’Reilly Auto Enterprises’ conduct
involved repeated actions or was an isolated instance;
and whether the harm to Mr. Bell was the result of
intentional malice, trickery, deceit, or mere accident.44
You may consider whether O’Reilly Auto Enterprises
violated its obligation to, in good faith, engage in the
interactive process with Mr. Bell that I described to
you earlier.45 You may also consider O’Reilly Auto
Enterprises’ net financial worth.46

44 See this Court’s Pattern Jury Instruction 10.1.
45 See Seventh Circuit Model Jury Instruction 4.08.
46 See Morse v. Southern Union Co., 174 F.3d 917, 925-26 (8th
Cir. 1999) (defendant’s financial net worth relevant for punitive
damages); E.E.O.C. v. W&O, Inc., 213 F.3d 600, 616-17 (11th
Cir. 2000)(same); and Deters v. Equifax Credit Information
Svcs., Inc., 202 F.3d 1262, 1273 (10th Cir. 2000)(same).

App.51a
Respectfully submitted,
/s/ Allan K. Townsend
Chad T. Hansen
Allan K. Townsend
Attorneys for Plaintiff

Maine Employee Rights Group

92 Exchange Street
Portland, Maine 04101
(207) 874-0905
chansen@maineemployeerights.com
Date: July 3, 2018

App.52a
DEFENDANT’S PROPOSED
JURY INSTRUCTIONS
(JULY 3, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
1:16-cv-00501-JDL
Defendant O’Reilly Auto Enterprises, LLC, d/b/a
O’Reilly Auto Parts, propose the following jury
instructions for consideration by the Court, on the
elements of reasonable accommodation, disparate
treatment, and for punitive damages under the Maine
Human Rights Act. Defendants respectfully reserve
the right to submit additional jury instructions for
consideration.
1.

Defendant’s Proposed Jury Instruction No. 1
Reasonable Accommodation

The law requires employers to provide reasonable
accommodation to employees who are disabled unless

App.53a
the accommodation would impose an undue hardship on the employer or pose a direct threat to the
employee or others.
To succeed on a claim that the employer has
failed to provide a reasonable accommodation, the
employee must prove:
 First, that he was disabled. In this case Brian
Bell claims that his disability was a mental
impairment which substantially limited his
ability to concentrate and to interact with
others. In order to establish this element of his
claim, Mr. Bell must prove that this limitation
existed at the time he made the request for an
accommodation;
 Second, that he needed an accommodation in
order to perform the duties of his job;
 Third, that the proposed accommodation
would enable him to perform the essential
functions of the job and that the accommodation was feasible for the employer under
the circumstances; and
 Fourth, that the employee made a request for
the accommodation that was sufficiently direct
and specific so as to put the employer on
notice of the need for an accommodation.
If the employee meets this burden, then the
employer bears the burden of proving that the
accommodation the plaintiff proposed would have
been an undue burden or direct threat.
On this claim, the employee need not show that
the employer had discriminatory intent. A reasonable
accommodation is a modification or adjustment to

App.54a
the work environment or to the manner in which a
job is performed. Under some circumstances, a
reasonable accommodation may include job
restructuring, a part-time or modified work schedule,
or reassignment to a vacant position.
A reasonable accommodation does not include
changing or eliminating any essential function of a
job, shifting any of the essential functions of the job
to others, or creating a new position for the disabled
employee.
An essential function is one that is fundamental
to a position rather than marginal. In order to decide
what the essential functions of a job are, you may
consider the following factors: (1) The employer’s
judgment as to which functions of the job are essential;
(2) written job descriptions; (3) the amount of time
spent on the job performing the function in question;
(4) consequences of not requiring the person to perform
the function; (5) the terms of a collective bargaining
agreement; (6) the work experience of people who
have held the job; (7) the current work experience of
people in similar jobs; (8) whether the reason the
position exists is to perform the function; (9) whether
there are a limited number of employees available
among whom the performance of the function can be
distributed; (10) and whether the function is highly
specialized and the individual in the position was
hired for his expertise or ability to perform the
function. No one factor is necessarily controlling. You
should consider all of the evidence in deciding whether
a job function is essential.
An employer is not required to make an accommodation which would have the effect of lowering its

App.55a
standards, insofar as the quality and quantity of the
work of its employees is concerned.
Additionally, the law does not require employers
to provide a stress-free work environment or a work
environment without aggravation.
An “undue hardship” is an action that would
create significant difficulty or expense for the employer,
considering the nature and cost of the accommodation,
the overall financial resources of employer, the effect
of the accommodation on expenses and resources,
and the impact of the accommodation on the operations
of employer, including the impact on the ability of
other employees to perform their duties and the
impact on the employer’s ability to conduct business.
Authority:

Pattern Jury Instructions for Cases of Employment
Discrimination for the District Courts of the
United States Court of Appeals for the First
Circuit, No. 3.2
Regarding Need for Accommodation:

Black v. Wayne Center, 225 F.3d 658 (6th Cir.

2000) (“[W]here plaintiff is able to perform the
job without accommodation, plaintiff cannot
demonstrate the objective reasonableness of any
desired accommodation.”)

Burnett v. Ocean Properties, Ltd., 2018 WL
2925126, at *31 (D. Me. June 11, 2018) (citing
Black v. Wayne Center, supra)
Regarding Definition of Essential Function:

Jones v. Walgreen Co., 679 F.3d 9, 14

(1st Cir. 2012)

App.56a
Regarding Employer’s Obligation to Provide StressFree Environment:

Cannice v. Norwest Bank Iowa N.A., 189 F.3d
723, 728 (8th Cir. 1999)

Patterson v. McDonald, 220 F. Supp. 3d 634,

640 (M.D.N.C. 2016)

Palmerini v. Fid. Brokerage Servs. LLC, 2014
WL 3401826, at *7 (D.N.H. July 9, 2014)

Prichard v. Dominguez, 2006 WL 1836017,
at *13 (N.D. Fla. June 29, 2006)

Regarding Employer’s Obligation to Lower Standards:

Mulloy v. Acushnet Co., 460 F.3d 141, 147
(1st Cir. 2006)

Richardson v. Mabus, 203 F.Supp.3d 86, 156

(D. Me. 2016)
2.

Defendant’s Proposed Jury Instruction No. 2
Disparate Treatment

Brian Bell also accuses O’Reilly Auto Parts of
discriminating against him on the basis of disability
when he was placed on leave while his accommodation
request was resolved.
To succeed on this claim, Mr. Bell must prove by
a preponderance of the evidence all of the following:
 First, that he was disabled. In this case Brian
Bell claims that his disability was a mental
impairment which substantially limited his
ability to concentrate and to interact with
others. In order to establish this element of his
claim, Mr. Bell must prove that this limitation

App.57a
existed at the time he made the request for an
accommodation;
 Second, Mr. Bell must prove that he was a
qualified individual, which means (a) he
possessed the necessary skill, experience,
education, and other job-related requirements
for the job of an O’Reilly Auto Parts store
manager, and (b) as of June 4, 2015, when he
requested a reduced work schedule, he could
have performed the essential functions of a
store manager if he had been given that
accommodation;
 Third, Mr. Bell must prove that O’Reilly Auto
Parts knew his ability to concentrate and to
interact with others were substantially impaired;
and
 Fourth, Mr. Bell must prove that, were it not
for disability discrimination, O’Reilly Auto
Parts would not have taken adverse employment action against him.
An essential function is one that is fundamental
to a position rather than marginal. In order to decide
what the essential functions of a job are, you may
consider the following factors: (1) The employer’s
judgment as to which functions of the job are essential;
(2) written job descriptions; (3) the amount of time
spent on the job performing the function in question;
(4) consequences of not requiring the person to perform
the function; (5) the terms of a collective bargaining
agreement; (6) the work experience of people who
have held the job; (7) the current work experience of
people in similar jobs; (8) whether the reason the
position exists is to perform the function; (9) whether

App.58a
there are a limited number of employees available
among whom the performance of the function can be
distributed; (10) and whether the function is highly
specialized and the individual in the position was
hired for his expertise or ability to perform the
function. No one factor is necessarily controlling. You
should consider all of the evidence in deciding whether
a job function is essential.
An “adverse employment action” is one that,
standing alone, actually causes damage, tangible or
intangible, to an employee. A trivial harm is insufficient. The fact that an employee is unhappy with
something his or her employer did or failed to do is
not enough to make that act or omission an adverse
employment action. An employer takes materially
adverse action against an employee only if it: (1)
takes something of consequence away from the
employee, for example by discharging or demoting
the employee, reducing his or her salary, or taking
away significant responsibilities; or (2) fails to give
the employee something that is a customary benefit
of the employment relationship, for example, by
failing to follow a customary practice of considering
the employee for promotion after a particular period
of service. Whether action is materially adverse should
be judged from the perspective of a reasonable person
in the plaintiff’s position, considering all the circumstances.
Mr. Bell need not show that disability discrimination was the only or predominant factor that
motivated O’Reilly Auto Parts. In fact, you may
decide that other factors were involved as well in
O’Reilly Auto Parts’ decisionmaking process. In that
event, in order for you to find for Mr. Bell, you must

App.59a
find that he has proven that, although there were
other factors, he would not have been placed on leave
without the disability discrimination. An employer is
free to place an employee on leave for any nondiscriminatory reason even if its business judgment
seems objectively unwise. But you may consider the
believability of an explanation in determining whether
it is a cover-up or pretext for discrimination. In order
to succeed on the discrimination claim, Mr. Bell must
persuade you, by a preponderance of the evidence,
that were it not for disability discrimination, he would
not have been placed on leave. Mr. Bell is not required
to produce direct evidence of unlawful motive. You
may infer knowledge and/or motive as a matter of
reason and common sense from the existence of other
evidence―for example, explanations that you find were
really pretextual. “Pretextual” means false or, though
true, not the real reason for the action taken.}

Pattern Jury Instructions for Cases of Employment
Discrimination for the District Courts of the
United States Court of Appeals for the First
Circuit, Nos. 3.1 & 1.1
Regarding the Relevant Date for Evaluating the
Plaintiff’s Limitation:

Burch v. Coca-Cola Co., 119 F.3d 305, 315

(5th Cir. 1997)

Pritchard v. The Southern Co. Servs., 92
F.3d 1130, 1133 (11th Cir. 1996), amended
on other grounds on reh’g, 102 F.3d 1118
(11th Cir. 1996), cert. denied, 520 U.S.
1274, 117 S.Ct. 2453, 138 L.Ed.2d 211 (1997)
Dahlman v. Tenenbaum, 2011 WL 3511062,
at *7 (D. Md. Aug. 9, 2011)

App.60a

Bielek v. Allegheny Ludlum Corp., 2006 WL
2773487, at *11 (W.D. Pa. Sept. 22, 2006)
Regarding Definition of Essential Function:

Jones v. Walgreen Co., 679 F.3d 9, 14

(1st Cir. 2012)
3.

Defendant’s Proposed Jury Instruction No. 3 Clear
and Convincing Evidence (for Punitive Damages
Claim Under Maine Human Rights Act)

You will be asked to make certain findings by a
preponderance of the evidence, and others by clear
and convincing evidence.
The clear and convincing evidence standard is a
higher standard than the preponderance of the evidence
standard. To find facts proven by clear and convincing
evidence, you must have an abiding conviction that it
is highly probable that the facts that the plaintiff
must prove are the correct view of the events at
issue.
Authority:

Dubois v. Madison Paper Co., 2002 ME 1,

¶ 10, 795 A.2d 696, 699

Dated at Portland, Maine this 3rd day of July,
2018.

App.61a
/s/ Christopher C. Taintor
Attorneys for Defendant
NORMAN, HANSON & DETROY
Two Canal Plaza
P.O. Box 4600
Portland, Maine 04112-4600
(207) 774-7000

App.62a
COLLOQUY WITH COURT REGARDING
FAILURE TO ACCOMMODATE INSTRUCTION
(JULY 18, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
Docket No. 1:16-cv-00501-JDL
Volume III of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 18, 2018 Transcript, p. 628]
THE COURT: Seems accurate.
MR. TAINTOR: It makes sense to me.
THE COURT: All right. So that change applies across
the board, not permitted to return to his store
manager position.
THE COURT: Great. Page 12?

App.63a
MR. TAINTOR: So I had a general concern about the
failure to accommodate instruction, and I somehow
have managed to leave my proposed instructions
elsewhere, but I know that I had—I had requested
a—I had requested that the need for an
accommodation be included, and I do think that’s
important and cited a Sixth Circuit case for that
proposition. And so my concern is that, I think, a
failure to accommodate claim is different in a
sense—I think the problem is because we’ve mixed
the—I don’t want to say we’ve mixed—because
there are simultaneously a failure to accommodate
claim and a disability discrimination claim, of
course, a disability discrimination claim can
proceed without regard to what the disability is.
But on the failure to accommodate issue, the
impact on the ability to work is actually essential,
and so, for example, if—I think a jury can be
mislead into thinking that simply because Mr. Bell
had, for example, you know, a condition which
interfered with his ability to sleep, that would
necessarily entitle him to an accommodation. He
is only entitled to an accommodation, if at all, if
he can prove that he needed that accommodation
in order to work, in order to do his job. And so I
think that’s the point of the proposal as to why
there needs to be language in there that demonstrates that he—that his condition is one that
makes him need an accommodation. It’s not just
a disability in the abstract.
THE COURT: So can you point me to language that
you would like me to add?

App.64a
MR. TAINTOR: It was in that proposed instruction.
Sure. I apologize. This is the second time I have
done that this week.
MR. TOWNSEND: Are you talking on page 2 of your
proposed instruction on the second element there?
MR. TAINTOR: I had language in here. I apologize.
Let me—oh, I see. I am—well, I wasn’t realizing
this was two-sided. Yeah, so the instruction I
proposed was that—right. I said, he must prove
first that he was disabled; second, that he
needed an accommodation in order to perform
the duties of his job.
MR. TOWNSEND: That seems to be subsumed into
the second element. That’s in the Court’s proposed
instructions, that the—the Court’s—on page 13
says that the proposed accommodation would
enable him to perform the essential functions of
the job. It seems to be saying the same thing. He
needed it. It would enable him.
MR. TAINTOR: Well, I think it—
MR. TOWNSEND: I mean, to add another—to add it
in saying both ways seems to overemphasize the
element.
THE COURT: All right. Well, it seems to me that proof
that he needed an accommodation to perform the
duties of his job is a correct statement of law, and
furthermore, that the proposed accommodation
would have enabled him to perform the essential
functions of the job is also a correct statement of
law and they’re different. So I am inclined to
include that sentence to add it to the second on
the top of page 13. However, I note that your

App.65a
proposed instruction says, duties of his job, and
we have been speaking of essential functions of
the job, and it seems to me that we should be
consistent. Do you agree?
MR. TAINTOR: Sure. Yeah.
THE COURT: So second would be—it would be second
and then after the word that we would insert
that he needed an accommodation in order to
perform the essential functions of his job, comma,
and the proposed accommodation would have
enabled—would enable him to perform the
essential functions of the job, comma, and that
the accommodation is feasible for the employer
under the circumstances.
MR. TOWNSEND: I still think that—I still think it’s
saying the same thing twice, but—so I—but I
understand that you disagree, Your Honor, so I
would just— . . .
[...]
THE COURT: Well, this is a case—I’m thinking now
that the—I mean, the case isn’t about a hostile
work environment, right?
MR. TAINTOR: Although it’s being made to look that
way. I mean, I think a lot of this is about—
THE COURT: So I am not going to instruct on that,
but you can argue it.
MR. TAINTOR: Okay.
MR. TOWNSEND: As we were—as we were just—I
just remembered another point, which I had put
into my written objections to the defendant’s
proposed instructions regarding something we

App.66a
were discussing earlier on page 13 about the
plaintiff being required to prove that he needed
the accommodation to do the job. It’s also the
case that an accommodation can make—can be
required to be given to make a job easier to do,
not just possible to do. And I put that in—that’s
in my objection to defendant’s instructions. I
have some case law on there regarding that.
THE COURT: Well, I’m not sure I understand that. I
mean, the standard is he needed accommodation
so he could perform the essential functions of
the job. It’s not about easier or harder, is it? It’s
that these accommodations would allow him to
meet the requirements of the job.
MR. TOWNSEND: Right. But I think it’s possible
that—I think it’s possible that Mr. Bell could have
continued to work without this accommodation,
but it would impair his health quite a bit and so to
make it easier for him so his health is not
impaired, he needs to do—the case I cited, Higgins
talks about an example where the employee had
a hearing disability and he could with difficulty
hear what was going on, but he needed some
accommodations to makes things louder so it
would be easier for him to do. The Court found
that that was a type of reasonable accommodation
that’s required. So it’s not just that they needed
to make it possible to do the job, they could also
make it easier to do the job.
THE COURT: Easier seems imprecise to me.
MR. TOWNSEND: Well, I was not suggesting adding
any language. I was suggesting keeping language
out.

App.67a
THE COURT: Which language?
MR. TOWNSEND: The language that Mr. Taintor
proposed that we had talked about earlier about
the plaintiff has to show that he needed the
accommodation in order to perform the job.
THE COURT: Essential functions of the job?
MR. TOWNSEND: Essential functions of the job.
THE COURT: All right. And what quote is that decision
from?
MR. TOWNSEND: The cases I cited were First
Circuit . . . .
[...]

App.68a
TRIAL COURT JURY INSTRUCTION
(JULY 19, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
Docket No. 1:16-cv-00501-JDL
Volume IV of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 19, 2018 Transcript, p. 753]
. . . accommodate. Mr. Bell has also made a claim
of disability discrimination based on his assertion
that O’Reilly Auto failed to provide him with a
reasonable accommodation. The ADA and the
MHRA require employers to provide reasonable
accommodation to employees who are disabled
unless the accommodation would impose an undue
hardship on the employer.

App.69a
To succeed on his claim that O’Reilly Auto failed
to provide him with reasonable accommodation,
Mr. Bell must prove the following by a preponderance of the evidence, first, that Mr. Bell was
disabled, as I have previously explained that term
to you, second, that he needed an accommodation
to perform the essential functions of the job, that
the proposed accommodation would enable him
to perform the essential functions of the job, and
that the accommodation was, at least on the face
of things, reasonable, third, that he made a request
for the accommodation that was sufficiently direct
and specific so as to put O’Reilly Auto on notice
for the need of accommodation, and fourth, that
O’Reilly Auto did not reasonably accommodate his
disability. Mr. Bell need not show that O’Reilly
Auto had a discriminatory intent.
If Mr. Bell meets his burden of proving each of the
four elements by preponderance of the evidence,
then O’Reilly Auto bears the burden of proving
by preponderance of the evidence that the accommodation he proposed would have been an undue
hardship. This is the only aspect of the case in
which . . .
[...]

App.70a
DIRECT EXAMINATION OF BRIAN BELL,
RELEVANT EXCERPT
(JULY 17, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.

________________________

Docket No. 1:16-cv-00501-JDL
Volume II of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 17, 2018 Transcript, p. 461]
Q

[Chad Hansen, Counsel for Bell]: How did they
respond to that?

A

[Brian Bell]: Basically that we would revisit the
situation after I had followed up with her.

Q

So when you—you met with Ms. Weitzel again?

A

Yes.

App.71a
Q

In person?

A

Yes.

Q

Same practice where you’d met her the previous
two times?

A

Correct.

Q

Same room?

A

Yes.

Q

So focusing on that meeting with her, was there
a discussion about this request from Mr. Watters
to provide a different form?

A

Yes, I—I did address that with her.

Q

And how did she respond about that issue?

A

She felt that at the time, it would be inappropriate
for her to amend the form, that she thought in
doing so, it would undermine the validity of the
original form, but that she was willing to discuss
it with them or clarify with them after review.

Q

During this third meeting with her, did you—did
the two of you reiterate that the understanding
was that you could work unscheduled hours on
occasion?
[...]

App.72a
CROSS EXAMINATION OF BRIAN BELL,
REGARDING FITNESS FOR DUTY
RELEVANT EXCERPTS
(JULY 18, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.
________________________
Docket No. 1:16-cv-00501-JDL
Volume III of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 18, 2018 Transcript, p. 518]
Q

[MR. TAINTOR, Defense Counsel for O’Reilly]
So when—when this Fitness for Duty form was
being implemented, was it your expectation that
you would be free to be consulted six or seven
days a week if it was just for a short time?

A

[BRIAN BELL] If I was available, yes.

App.73a
Q

And one of the things you told Mr. Hansen
yesterday was that when you went back to Judy
Weitzel for clarification of the Fitness for Duty
form or at least what Mr. Watters thought
required clarification, she said, no, because in at
least as you described it, it would undermine the
validity of the original form, what did you mean
by that?

A

I mean that she felt she had made the restriction
clear and that if there was any need for additional
clarification she would want to discuss it and
understand better what was needed and how to
clarify that before filling it out again.

Q

Would you agree with me, Mr. Bell, that under
the–I will call it the revised or the more flexible
Fitness for Duty form that you contend O’Reilly
should have accommodated, neither you nor
O’Reilly would ever know whether you could
work more than nine hours in a given day until
you got to the end of the ninth hour?

A

I don’t feel anyone could commit to that one way
or another without—with any exceptional degree
of certainty.

Q

Well, you understood that up until you got this
work restriction from Ms. Weitzel that you were
expected to be available a minimum of 10 hours
a day, right?

A

If we’re not including breaks.

Q

Well, often 11 hours a day if we are not including
breaks, right?

A

Well, I believe what I said was from 4:—from
6:00 in the morning until 4:30 in the afternoon

App.74a
or 6:30 until 5:00, which would have been much
closer to 9.
Q

Well, at least nine and a half and oftentimes as
much as ten at a minimum, right?

A

Yes.

Q

Okay. And you understood that the way Ms.
Weitzel and you envisioned this Fitness for Duty
form working, it was going to be up to you
depending on how you felt on any given day
whether you could or could not work beyond
those limits?

A

Yes.

Q

And the question was going to be whether you
felt up to it, true?

A

Yes.

Q

And you wouldn’t know whether you felt up to
working 10 or 11 or 12 hours in a day until you
got to the end of the 9th hour and saw how you
felt, right?

A

I would have done what was needed at that point.

Q

Well, are you saying that you know that you
were capable of working as many hours as
needed to get the job done?

A

I am saying that I was committed to the success
of my store and if there was no other option,
then I would have found a way.

Q

Well, you can be committed to doing something,
but if you’re actually physically or emotionally
disabled from doing it, your level of commitment
is kind of irrelevant, isn’t it?

App.75a
A

I think irrelevant may not be the correct term.

Q

Well, the whole concept of this case, as you
understand it, is that you needed an accommodation because you were not capable of doing
the job the way other store managers did it,
true?

A

My understanding of this case is that I was not
capable of doing the job the way I had been
doing it at that point.

Q

And you were not capable of doing it in the way
that O’Reilly had told you when they hired you
it needed to be done, right?

A

I don’t feel that’s an accurate characterization,
no.

Q

How is that not accurate? Let me go back and
start over. You were told when you were hired
that you were expected to work certain hours,
true?

A

Correct.

Q

And what you were saying in this Fitness for
Duty form was, among other things, you could
not work all of those expected hours, true?

A

No, I was saying that I couldn’t be scheduled
above those hours.

Q

So you’re saying you could work those hours? Is
this just a question of what you put on a piece of
paper for the schedule? Are you saying that you
could work as many hours as you ever needed to,
it was just someone shouldn’t put something down
on a piece of paper that said it was expected of
you?

App.76a
A

I don’t think anyone can commit with surety to
their physical or mental capability notice in the
future, regardless of disability. If someone is
sick, if someone is hurt, all of those will come into
play, and I didn’t want to and still don’t want to
say with a degree of 100-percent certainty that I
would have been capable or incapable of anything
at that time.

Q

Okay. So you can’t—and I understand what you’re
saying, I think, but the bottom line here is if
O’Reilly had agreed to the restrictions that you
and Judy Weitzel wanted to put in place—

A

Correct.

Q

—and you had been scheduled for nine hours a
day, five days a week—

A

Correct.

Q

—your expectation was that if you got to the
ninth hour on Wednesday—

A

Yes.

Q

—and O’Reilly said, Chris Watters said, you know
what, . . .
[...]

App.77a
DIRECT EXAMINATION OF CHRIS WATTERS,
RELEVANT EXCERPT
(JULY 18, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.

________________________

Docket No. 1:16-cv-00501-JDL
Volume I of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 18, 2018 Transcript, p. 138]
Q

[MR. HANSEN] Well, after you got the email,
did you tell Brian that, that the email wasn’t good
enough because it was his word and not his
medical provider’s word?

A

[CHRIS WATTERS] At some point in time, he
was told to get an updated Fitness for Duty form

App.78a
stating that he could work more than 45 hours a
week.
Q

After this email?

A

I don’t remember the time frame, somewhere
during this period.

Q

And you said you told him earlier that he needed
to get a—the—a different fitness for duty, right?

A

Yes, he needed an updated Fitness for Duty form.

Q

And you can’t recall one way or the other whether
Brian got back to you and said, Ms. Weitzel
doesn’t want to change the form because she
thinks that it says what the restriction is, but
you can call me to clarify?

A

No, again, the conversation was that he was pretty
adamant that he could get the Fitness for Duty
form modified to say what it needed to say to
benefit him coming back, but there was never a
revised one that was given.

Q

All right. So it’s your testimony that Brian never
said, she is not going to change the form, but you
can call her, it’s your testimony he never told
that you?

A

I don’t recall.
[...]

App.79a
RE-CROSS EXAMINATION OF CHRIS WATTERS,
RELEVANT EXCERPT
(JULY 18, 2018)
UNITED STATES DISTRICT COURT
DISTRICT OF MAINE
________________________
BRIAN BELL,

Plaintiff,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’REILLY AUTO PARTS,

Defendant.

________________________

Docket No. 1:16-cv-00501-JDL
Volume I of V
Before: Hon. Jon D. LEVY, Judge,
United States District Court.

[July 18, 2018 Transcript, p. 195]
RECROSS-EXAMINATION
BY MR. TAINTOR [Defense Counsel for O’Reilly]:
Q

So, Chris, Attorney Hansen has asked you about
what happens when you go away. So when you
go on vacation, you have coverage for your store?

A

I do.

App.80a
Q

And do you have someone covering at the store
who is prepared to deal with all of the urgent,
unexpected situations that you ordinarily would
have to urgently deal with if you were there?

A

I would hope so, yes.

Q

And that’s the idea, right?

A

Correct.

Q

You try to have a plan in place so that there is
someone there who if things get crazy, unexpected
situations come up, people quit, people get sick,
trucks break down, whatever it may be, there’s
someone there to step up and take care of
business, true?

A

That’s true. There should be somebody there to
find solutions for all those issues.

Q

Okay. Now, if in contrast to that, the situation
that we are talking about with Brian Bell, let’s
say he says he’s got this arrangement that he
suggests that he ought to have to work nine hours
a day, five days a week, and maybe a little . . .
[...]

App.81a
PETITION OF DEFENDANT-APPELLEE
O’REILLY AUTO ENTERPRISES, LLC
FOR REHEARING EN BANC
(SEPTEMBER 3, 2020)
UNITED STATES COURT OF APPEALS
FOR THE FIRST CIRCUIT
________________________
BRIAN BELL,

Plaintiff, Appellant,
v.
O’REILLY AUTO ENTERPRISES, LLC,
d/b/a O’Reilly Auto Parts,

Defendant, Appellee.

________________________
No. 18-2164

NOW COMES Defendant-Appellee O’Reilly Auto
Enterprises, LLC (hereinafter “O’Reilly”), and petitions
pursuant to Rule 35 of the Federal Rules of Appellate
Procedure for rehearing en banc.
O’Reilly requests rehearing en banc on the ground
that the proceeding involves a question of exceptional
importance. Specifically, the panel’s decision–that
“[t]he district court erred here when it instructed the
jury that, for a disabled employee to make out a
failure-to-accommodate claim, he must demonstrate
that he needed an accommodation to perform the
essential functions of his job” (emphasis in original)–

App.82a
conflicts with an authoritative decision of the Seventh
Circuit Court of Appeals, Brumfield v. City of Chicago,
735 F.3d 619 (7th Cir. 2013). The panel decision is
important, moreover, because it will impose upon
employers new and unmanageable burdens.
A.

The Panel Decision Produces Inter-Circuit Conflict

The panel arrived at its conclusion that the jury
instruction was erroneous by examining the duty to
accommodate in light of the definition of “qualified
individual.” Because an employer has a duty under
the ADA to accommodate “the known physical or
mental limitations of an otherwise qualified individual
with a disability,” 42 U.S.C. § 12112(b)(5)(A), and an
individual is a “qualified individual” if he or she can
perform the essential functions of a job “with or without reasonable accommodation,” id. § 12111(8), the
panel reasoned that there must be a duty, in some
circumstances, to accommodate employees who can
perform the essential functions of their jobs “without
. . . accommodation.”
The panel’s decision, and its analysis of the law,
conflict squarely with the result and analysis in
Brumfield. Although that case was decided under the
Rehabilitation Act, it analyzed the duty to accommodate
under the Americans with Disabilities Act, as “the
Rehabilitation Act incorporated the standards applicable to Title I of the ADA.” Id. at 630. Furthermore,
it was cited as authority in a later Seventh Circuit
opinion construing Title I of the ADA. Hooper v. Proctor
Health Care, Inc., 804 F.3d 846, 852 (7th Cir. 2015).
Brumfield, then, is an “authoritative” pronouncement
of the Seventh Circuit on what is required for an

App.83a
employee to make out a failure-to-accommodate claim
under the ADA.
The plaintiff in Brumfield was a police officer
who suffered from “unspecified ‘psychological problems.”
Id. at 622. She was fired after engaging in misconduct
which, she said, was “a manifestation of her psychological problems.” Id. at 623 & 630. She sued, alleging,
inter alia, both disparate treatment and failure to
accommodate under the Rehabilitation Act. The district
court dismissed her action, holding that she had failed
to state a cause of action under the Rehabilitation
Act, and the Seventh Circuit affirmed.
The Brumfield Court began, as did the panel
here, by listing the essential elements of a failure-toaccommodate claim under the ADA. According to the
Seventh Circuit’s formulation (which is worded differently from, but is substantively identical to, this
Court’s formulation): “(1) the plaintiff must be a
qualified individual with a disability; (2) the employer
must be aware of the plaintiff’s disability; and (3) the
employer must have failed to reasonably accommodate
the disability.” Id. at 631 (citing EEOC v. Sears,
Roebuck & Co., 417 F.3d 789, 797 (7th Cir. 2005),
and Kotwica v. Rose Packing Co., 637 F.3d 744, 747-48
(7th Cir. 2011)). The Court then observed that “[w]hile
this formulation usually captures the essence of a
failure-to-accommodate claim under the ADA and
Rehabilitation Act, [Officer Brumfield’s case] highlight[ed] a certain imprecision in the first element.”
The Brumfield Court then elaborated on the
“imprecise” fit between the requirement that an ADA
plaintiff be “qualified individual with a disability”
and the duty to accommodate. The Court explained:

App.84a
We have not specifically addressed the term
“otherwise qualified individual” as it appears
in the reasonable-accommodation provision.
However, the meaning of the term can be
extrapolated from our two-part test for determining whether an individual is “qualified”
within the meaning of the ADA, see [Hammel
v. Eau Galle Cheese Factory, 407 F.3d 852,
862 (7th Cir. 2005)], a test that tracks the
applicable regulations, 29 C.F.R. § 1630.2(m);
see also id. pt. 1630, app. at 1630.2(m)
(explaining that “[t]he determination of
whether an individual with a disability is
‘qualified’ should be made in two steps”).
First, the individual must meet the employer’s “legitimate selection criteri[a].” Hammel,
407 F.3d at 862. This means that the individual must be qualified on paper by, for
example, possessing “the requisite skill, experience, education and other job-related
requirements of the employment position”
at issue. 29 C.F.R. § 1630.2(m). Second, the
individual must be “capable of performing
the job’s ‘essential functions’ with or without
reasonable accommodation from an employer.” Hammel, 407 F.3d at 862. This second
part of the test encompasses two categories
of paper-qualified individuals with disabilities:
those who are able to perform the essential
functions of the job even without reasonable
accommodation, and those who could do so
if the employer were to make an accommodation for their physical or mental limitations. Since members of the first category
are qualified for the position in every relevant

App.85a
respect, only the members of the latter
category are individuals who have “physical
or mental limitations” but are “otherwise
qualified” for the position. 42 U.S.C. § 12112
(b)(5)(A) (emphasis added). Thus, an employer’s accommodation duty is triggered only in
situations where an individual who is
qualified on paper requires an accommodation
in order to be able to perform the essential
functions of the job. See id. §§ 12111(8),
12112(b)(5)(A); Hammel, 407 F.3d at 862.

Id. at 632 (emphasis added).
Finally, the Seventh Circuit drew precisely the
distinction O’Reilly drew in the District Court, and in
its brief to this Court: the distinction between a
disparate treatment claim, where a plaintiff need not
show a causal connection between his disability and
his job, and a failure-to-accommodate claim, where
that causal connection must be shown to exist.
At trial, counsel for O’Reilly explained why it
was important for the court to give the disputed
instruction:
[A] disability discrimination claim can proceed
without regard to what the disability is. But
on the failure to accommodate issue, the
impact on the ability to work is actually
essential. . . . I think a jury can be misled
into thinking that simply because Mr. Bell
had, for example, . . . a condition which interfered with his ability to sleep, that would
necessarily entitle him to an accommodation.
He is only entitled to an accommodation, if
at all, if he can prove that he needed that

App.86a
accommodation in order to work, in order to
do his job. And so I think that’s the point of
the proposal as to why there needs to be
language in there that demonstrates that
. . . his condition is one that makes him
need an accommodation. It’s not just a
disability in the abstract.
App. 265-266 (quoted at page 25 of O’Reilly’s Brief).
The Brumfield Court made exactly the same point,
explaining that disabled employees who can perform
the essential functions of their jobs are entitled to
some protection under the ADA–“[a] disabled employee
who is capable of performing the essential functions
of a job in spite of her physical or mental limitations
is qualified for the job, and the ADA prevents the
employer from discriminating against her on the
basis of her irrelevant disability”–but, since such an
employee’s limitations “do not affect her ability to
perform those essential functions, the employer’s
duty to accommodate is not implicated.” Id. at 633.
Thus, the Court said, “to satisfy the first element of a
failure-to-accommodate claim, the plaintiff must show
that she met the employer’s legitimate selection
criteria and needed an accommodation to perform
the essential functions of the job at issue (i.e., that
she was “otherwise qualified” under 42 U.S.C. § 12112
(b)(5), not merely “qualified” under § 12111(8)).” Id.
(emphasis added).
The conflict between Brumfield and the panel
decision here could not be clearer. That conflict is
highlighted in Hooper v. Proctor Health Care, supra.
There, an employee who suffered from bipolar disorder
sued under Title I of the ADA, arguing that his
employer failed to reasonably accommodate him by

App.87a
taking steps, which his psychiatrist had recommended,
to “improve [his] work environment” in ways that
would have “decrease[d] [his] stress level.” Hooper v.
Proctor Health Care, Inc., 804 F.3d at 850-51. But
because the plaintiff’s psychiatrist had cleared him
to work without accommodations, the Seventh Circuit,
relying on Brumfield, held that “these recommendations
[could not] form the basis of a failure to accommodate
claim.” Id. at 852. Although the accommodations might
have made it easier or more pleasant for the employee
to do his job, the fact that he was capable of
performing the job’s essential functions even without
an accommodation was fatal to his claim. Id.
B.

The Practical Ramifications of the Panel Decision
Will Be Momentous

The issue which is at the heart of the panel’s
decision is of “exceptional importance” not only because
it conflicts with Seventh Circuit authority, but also
because the panel decision may be construed to
create a standard so vague as to be unmanageable.
The argument advanced by Brian Bell, first at
trial and then in this Court, is that he has the right
to an accommodation as long as he “‘experience[d]
difficulty’ due to his disability ‘in performing his
job,’” and that “difficulty” would be relieved by an
accommodation. That formulation of the duty to
accommodate is both new and potentially oppressive,
especially in cases (like this one) involving claims of
mental and emotional disability, where the variety of
circumstances that might present an employee with
“difficulty” in doing his job is practically limitless.
For example, a person who suffers from anxiety
or depression, but who is “otherwise qualified”—a

App.88a
person who, in other words, is perfectly capable of
performing every function his job requires–may nonetheless find it emotionally taxing to share a workspace
with colleagues who grate on his nerves. Under the
formulation of the duty to accommodate advanced by
Bell, and seemingly endorsed by the panel, employers
(if asked) might be obligated to create for every such
employee a work environment free of potential conflict,
or even personal interaction. Arguably, every employer
would have an affirmative duty to minimize, if not
eliminate, the “difficulties” encountered by every
employee who carries a DSM-IV diagnosis.
There is a reason that the EEOC’s regulations
use the word “enable” throughout its guidance to
employers on their duty to accommodate. 29 CFR
§ 1630.2(o)(1)(i-iii). That provision makes it clear that
the employer must make modifications that “enable”
the disabled employee to perform the essential functions
of the job. Nothing more is required of employers.
The panel decision, read expansively, could turn the
employer into a concierge, allowing each disabled
employee to demand not just a job he or she can do,
but one that is comfortable–that is, not “difficult.”
The ADA has never been construed to impose such
a broad duty to accommodate. See, e.g., Harmer v.
Virginia Elec. And Power Co., 831 F.Supp. 1300, 1306
(E.D. Va. 1993) (employee who suffered from pulmonary disability, and who was able to do his job despite
smoke in workplace, was not entitled to accommodation
of a smoke-free environment, although it had been
recommended by his doctor).
“While Congress enacted the ADA to establish a
‘level playing field’ for our nation’s disabled workers,
it did not do so in the name of discriminating against

App.89a
persons free from disability.” Malabarba v. Chicago
Tribune Co., 149 F.3d 690, 700 (7th Cir. 1998) (quoting Schmidt v. Methodist Hospital of Indiana, Inc., 89
F.3d 342, 344 (7th Cir. 1996)). Non-disabled employees
are routinely required to perform tasks that are
“difficult,” physically or emotionally; that is why they
are paid. If the panel decision is read as imposing a
duty to alleviate every “difficulty” experienced by a
disabled employee–for example, one like Brian Bell,
who suffers from depression–it would provide a benefit that non-disabled workers do not enjoy. That would
be a profound change in the law, as it historically has
been understood and applied.
CONCLUSION
For the reasons set forth above, DefendantAppellee O’Reilly Automotive Enterprises, LLC respectfully requests that the Court rehear the appeal en banc.
/s/ Christopher C. Taintor
First Circuit Bar No. 8554
Counsel for Defendant-Appellee
NORMAN, HANSON & DETROY, LLC
Two Canal Plaza P.O. Box. 4600
Portland, ME 04112-4600
Dated: September 3, 2020

App.90a
U.S. COURTS PUBLICATION, JUST THE FACTS:
AMERICANS WITH DISABILITIES ACT
(JULY 12, 2018)
While overall civil rights cases have declined,
cases brought under the Americans with Disabilities
Act (ADA) have increased three-fold in recent years.
Filings in three states—California, Florida, and New
York—account for a significant number of the civil
rights cases filed under the ADA. You can find out
more in this new installment of Just the Facts, a
feature by the Judiciary Data and Analysis Office of
the Administrative Office of the U.S. Courts (AO)
that illuminates the work of the federal Judiciary
through data. Comments, questions, and suggestions
can be sent to the data team (mailto: AOdb_JDAO_
datateam@ao.uscourts.gov).
Background:
The ADA prohibits discrimination against people
with disabilities in areas of public life, including
employment, transportation, public accommodation,
communications, and governmental activities. The
ADA was signed into law by President George H.W.
Bush on July 26, 1990.
In 2005, the Administrative Office of the U.S.
Courts began publishing statistics on civil cases filed
under the ADA in the U.S. district courts. ADA cases
constitute a subcategory of civil rights cases on the
civil docket. The AO’s ADA statistics are separated
into cases raising employment discrimination claims
and cases raising other claims under the ADA. Most
of the other ADA claims involve public accommodation
matters.

App.91a
Complaints asserting a violation of the ADA are
often filed in federal district courts, although state
courts also have jurisdiction to hear such cases. The
decision of any district court can be appealed to a
circuit court of appeals, and a decision by the circuit
court can be appealed to the Supreme Court of the
United States. This report examines ADA cases in
the district courts.
Facts and Figures:
 In the 12-month period ending Dec. 31, 2017, the
number of civil rights cases filed in the district
courts was 39,800, which amounted to 14.5 percent
of the total civil docket. ADA cases accounted for
10,773 filings, which amounted to 4 percent of
the total civil docket and 27 percent of civil rights
cases.
 From 2005 to 2017, filings of civil rights cases
excluding ADA cases decreased 12 percent. In
contrast, during that period, filings of ADA cases
increased 395 percent (see Figure 1).
 From 2005 to 2017, filings of ADA cases raising
employment discrimination claims rose 196 percent
to 2,494. Filings of cases raising other ADA claims
grew more rapidly, increasing 521 percent to 8,279
cases. The latter category of cases includes those
raising claims of limited accessibility at businesses
such as restaurants, movie theaters, schools, and
office buildings (see Figure 2).
 Filings in the states of California, Florida, and
New York account for a significant number of ADA
cases (see Figure 3).

App.92a
 In 2017, more than half of ADA cases were filed
in three states (see Table 1).
 The map below shows the numeric difference
between ADA cases filed in 2005 and those filed in
2017 across U.S. states and territories (see Map 1).
 Map 2 shows the numeric changes in ADA filings
between 2016 and 2017
Table 1. ADA and Total Civil Filings and
Percentages by State, Calendar Year 2017
Percent
ADA
Filings

Total
Civil
Filings

Percent
Total Civil
Filings

California 2,933

27%

28,551

10%

Florida

1,614

15%

19,098

7%

New York

1,265

12%

22,258

8%

Rest of U.S. 4,961

46%

205,640 75%

State

ADA
Filings

The large concentration of lawsuits in three states
has been attributed to a variety of factors, according
to professional journals and news outlets.
 In California, state laws (the Disabled Persons
Act of 2009 and the Unruh Civil Rights Act of
1959) allow plaintiffs to add monetary claims for
damages to requests for injunctive relief in
lawsuits filed under the ADA. These state laws
may have contributed to the large number of
ADA cases filed in California.1
1 Johnson, Denise (2016, October 7). Why Claims Under Americans
with Disabilities Act Are Rising. Insurance journal. Retrieved

App.93a
 In Florida, “testers” may be contributing to the
growth in ADA case filings. A “tester” is a single
plaintiff who files separate claims against multiple
businesses alleging failure to comply with ADA
requirements. Florida recently passed a law aimed
at curbing what has been termed frivolous ADArelated lawsuits.2
 The large number of ADA cases in New York may
have been influenced by the age of many public
buildings and infrastructure across New York City
that plaintiffs claim are inaccessible to people with
disabilities. More recently, a class action was
approved against the Metropolitan Transportation
Authority of New York City, in which disability
organizations and disabled residents claim that
the lack of elevators at many subway stops results
in ADA violations.3

from https://www.insurancejournal.com/news/national/2016/10/
07/428774.htm (link is external); and Cooper, Anderson (2016,
December 4). What’s a “Drive-By Lawsuit”? CBS News, 60 Minutes. Retrieved from: https://www.cbsnews.com/news/60-minutesamericans-with-disabilities-act-lawsuits-anderson-cooper/.
2 Florida House Bill 727 summary, https://www.flsenate.gov/
Committees/billsummaries/2017/html/1674.
3 Center for Independence of the Disabled, New York et al v.
Metropolitan Transportation Authority et al, U.S. District Court,
Southern District of New York, No. 17-02990.

App.94a
 In all states, as the baby boom population has
aged, the pool of disabled persons has increased,
a factor that may contribute to growth in ADA
cases raising public accommodation claims.4
 In the case of Juan Carlos Gil v. Winn-Dixie Stores,
Inc., the Southern District of Florida decided on
June 13, 2017, that a retailer’s website discriminated against a plaintiff who is blind. This ruling
established a link between public accommodations
available online and the accessibility of the
retailer’s physical facilities. This is reported to be
the first ADA case raising a public-accommodation
claim related to website accessibility. Some legal
experts have speculated that the decision could
open the door to filings of similar suits.5

4 Moon, Nathan; Kaplan, Shelley; Weiss, Sally (2010, May/June).
ABA Business Law Section. Baby Boomers Are Turning Grey.
Retrieved from: https://apps.americanbar.org/buslaw/blt/201005-06/moon-kaplan-weiss.shtml.
5 Hale, Nathan (2017, June 14). Law360 (LexisNexis Company).
Winn-Dixie Loses ADA Fight Over Website Accessibility.
Retrieved from: https://www.law360.com/articles/934358/winndixie-loses-ada-fight-over-website-accessibility.

App.95a
Figure 1.
ADA and Non-ADA Civil Rights Cases, 2005–2017

Source: Table C2, 12-Month Periods Ending December
31, 2005 through 2017.

Figure 2.
ADA Civil Rights Cases, by Type, 2005–2017

Source: Table C2, 12-Month Periods Ending December
31, 2005 through 2017.

App.96a
Figure 3.
ADA Civil Rights, by State, 2005–2017

Source: Table C2, 12-Month Periods Ending December
31, 2005 through 2017, Aggregated by State.
Map 1
U.S. District Courts—Numeric Changes in
Filings of ADA Cases, 2005–2017

Source: Table C2, 12-Month Periods Ending December
31, 2007 through 2017, Aggregated by State.

App.97a
Map 1
U.S. District Courts—Numeric Changes in
Filings of ADA Cases, 2016–2017

Source: Table C2, 12-Month Periods Ending December
31, 2007 through 2017, Aggregated by State.

